           U.S. Department of
                                                        Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Announcement of                          Date:    September 9, 2005
           Follow-up Review: Airline Customer
           Service Commitment
           Project No. 05A3014A000

  From:                                                       Reply to
           Kenneth M. Mead                                    Attn. of:   JA-10
           Inspector General

    To:    The Secretary
           Deputy Secretary
           Under Secretary for Policy
           Chief of Staff
           Federal Aviation Administrator
           General Counsel
           Assistant Secretary for Aviation
            and International Affairs

           In response to a request from Representative John L. Mica, Chairman, Committee
           on Transportation and Infrastructure Subcommittee on Aviation, we are initiating
           a follow-up review on the performance of U.S. airlines in implementing provisions
           of the Airline Customer Service Commitment.

           Airline customer service issues took center stage in 1999, as aviation delays and
           cancellations began to escalate rapidly. Following congressional hearings on these
           service issues, member airlines of the Air Transport Association agreed to
           voluntarily execute the Commitment. Aviation delays and cancellations continued
           to worsen, eventually reaching their peak during the summer of 2000. In the
           summer of 2000,1 more than 1 in 4 flights (28.3 percent) were delayed, with an
           average delay of 54 minutes.

           The Department of Transportation’s Office of Inspector General was directed by
           Congress to evaluate the effectiveness of the Commitment and the customer
           service plans of individual airlines. We issued our final report in February 2001.

           1
               June 1, 2000, through August 31, 2000.
                                                                                   2

Overall, we found the airlines were making progress toward meeting the
Commitment and it has been a plus for air travelers on a number of important
fronts.

Since that report, the airlines have faced major challenges, including a weakened
economy, the 2001 terrorist attacks, the war in Iraq, and rapidly rising fuel prices.
Several airlines have gone into bankruptcy and more may follow; most airlines
have cut costs by restructuring their workforces, among other efforts. We
revisited airline customer service issues to a limited extent following last year’s
busy December 2004 holiday travel period when weather and other issues led to
severe service disruptions in some parts of the country. While our review focused
on the inconveniences experienced by Comair and US Airways passengers, we
found that over one-half of all flights, systemwide, during the 7-day travel period
were either delayed or cancelled, affecting hundreds of thousands of passengers.

With traffic rebounding as the number of flights and passengers exceed
2000 levels, we think it is time to revisit selected aspects of airline customer
service. Unlike our prior work, which entailed a review of each of the
12 provisions in the Commitment, our focus this time will be on select provisions
of the Commitment that have an immediate impact on passengers. We will
conduct this review in phases, with the first phase beginning in September 2005.
This initial effort will focus on the following commitments and the issues that
derive from them.

• Notification of Delays and Cancellations
   We will identify what efforts the air carriers and airports have made to reduce
   the number of flights chronically delayed or cancelled and to improve the flow
   of information about delays and cancellations. We will also observe in real
   time how effectively the airlines’ employees—call centers, ticket agents, gate
   agents, and on-board personnel—are advising travelers about delays and
   cancellations and their causes.

• Frequent Flyer Programs
   We previously recommended that airlines be more forthcoming with data on
   their frequent flyer programs, including data on the percentage of successful
   redemptions and frequent flyer seats made available in the airline’s top origin
   and destination markets. We will follow up to determine whether the airlines
   are making available a more comprehensive reporting of frequent flyer
   redemption information in its frequent flyer literature and annual reports.

• DOT’s Authority To Investigate Unfair and Deceptive Practices
                                                                                   3

   The Department has authority to investigate unfair and deceptive airline
   practices. In our previous customer service report, we recommended that the
   Department be given additional resources to investigate and enforce cases
   under this statutory authority, and Congress did so. As part of this audit, we
   will review how the Department has used these additional resources in
   overseeing and enforcing air travel consumer protection requirements.
   In this regard, one area of focus will be on the Department’s investigations and
   actions related to airline disclosure and scheduling practices on flights that are
   chronically delayed or cancelled. This will include determining the causes of
   chronically cancelled flights and determining whether appropriate notification
   is made to passengers. In addition, we will review the Department’s actions to
   address consumer complaints related to the number of seats made available by
   the airlines at the lowest advertised fares.

• Overbooking and Denied Boardings

   We will determine whether inconsistent compensation practices still exist for
   passengers who voluntarily give up their seats and whether there have been any
   changes in the compensation policies for passengers who are involuntarily
   denied boarding. We will also review the Department’s oversight and
   enforcement of airline compliance with regulations governing overbooking.

• Accommodation for Disabled and Special Needs Passengers
   The Department is required to investigate and enforce Federal laws on
   accessibility for disabled travelers. The airlines performed well with this
   provision in our prior review, and we will follow up with the Department and
   the airlines to ensure that service has not suffered, especially in light of cost-
   cutting efforts by the airlines.

Our work will be conducted at Department of Transportation Headquarters in
Washington, DC; the home offices of each member airline of the Air Transport
Association; select member airlines from the Regional Airline Association and the
Air Carrier Association of America; and select airports served by these airlines. If
you have any questions or need additional information, please contact me at
(202) 366-1959 or Robin K. Hunt, Deputy Assistant Inspector General for
Aviation and Special Program Audits at (415) 744-3090.

                                         #

cc: Air Transport Association of America
    Regional Airline Association
    Air Carrier Association of America
